                       The Health Coverage Tax Credit
                         Was Accurately Processed
                        During the 2004 Filing Season

                                  December 2004

                       Reference Number: 2005-40-017




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    December 10, 2004


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


      FROM:                           Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

      SUBJECT:                        Final Audit Report - The Health Coverage Tax Credit Was
                                      Accurately Processed During the 2004 Filing Season
                                      (Audit # 200440013)


      This report presents the results of our review of the processing of the Health Coverage
      Tax Credit (HCTC, or credit). The overall objective of this review was to determine
      whether tax returns claiming the HCTC were processed efficiently and accurately during
      the 2004 Filing Season.1
      The HCTC was established by the Trade Act of 20022 to help certain displaced workers
      and certain retirees pay for their health insurance. The credit covers 65 percent of the
      cost of qualified health insurance premiums for eligible individuals and their qualified
      family members. Taxpayers can receive the credit through advance payments made by
      the Federal Government directly to the insurer, by claiming the credit on their tax
      returns, or by a combination of these methods. Our review focused on the processing
      of the credit claimed on the tax returns. The advance payment process was covered in
      a separate review by the Government Accountability Office.
      In summary, the Internal Revenue Service (IRS) accurately processed returns claiming
      the credit during the 2004 Filing Season. To minimize erroneous payments, the IRS
      placed an eligibility indicator on the accounts of potentially eligible taxpayers. This
      indicator helped prevent over 8,000 ineligible taxpayers from receiving the credit. In
      addition, the IRS had accurate procedures, controls, and computer programming to
      ensure returns claiming the HCTC were processed correctly. The IRS also started
      post-processing reviews of returns with the credit to verify taxpayers were qualified to
      receive the credit. The methodology used to select these returns was acceptable, and

      1
          The period between January and mid-April when most individual income tax returns are filed.
      2
          Pub. L. No. 107-210, 116 Stat 933.
                                            2

the processes and procedures used for these reviews were sufficient to effectively work
the cases.
While the IRS processing of the credit was accurate, we identified processing
improvements that could be made. Because the credit amount is combined with other
credits on a single line of the U.S. Individual Income Tax Return (Form 1040), manual
processing is required to calculate and input the correct credit amount to the IRS return
processing system. We also had concerns regarding the post-processing reviews of the
credit. First, the IRS function performing the reviews did not have some necessary
procedures. This issue was reported to the IRS, and corrective actions have been
taken. Second, the legislation that created the credit needs clarification regarding how
to properly disallow the credit when taxpayers do not qualify for it. As the statute is
written, it appears the credit is not subject to the normal examination process and the
IRS can deny the credit without performing an examination; however, special collection
requirements apply. This could result in taxpayer rights not being adequately protected
and may reduce the possibility that the disallowed credit would be collected.
We recommended the Commissioner, Wage and Investment (W&I) Division, add a
specific line for the HCTC to the Form 1040, transcribe information from the Health
Coverage Tax Credit (Form 8885) attachment to the Form 1040, and implement
pre-refund systemic validity and compliance checks. We also recommended the
Commissioner, W&I Division, review the legal status of HCTC disallowances and
determine if action by the Congress is necessary.
Management’s Response: IRS management stated that while, in concept, they do not
disagree with our recommendations and recognize that all of the recommended actions
may result in more efficient processing, they can take action on only two of them at this
time. IRS management agreed to implement pre- and post-refund validity and
compliance checks for Tax Year 2004. IRS management also agreed to work with the
IRS Office of Chief Counsel to find appropriate methods for collecting erroneous
payments within the context of the existing law. IRS management did not agree to add
a specific line for the HCTC to the Form 1040 or to transcribe information from the
Form 8885. Management’s complete response to the draft report is included as
Appendix IV.
Office of Audit Comment: We understand the rationale behind IRS management’s
decision to not implement one of our recommendations. IRS management stated that
although they see the benefit of adding a line for the HCTC, there is no space on the
current Form 1040. Furthermore, without a new line for the HCTC, there would be no
need to transcribe the Form 8885 information because it would not enhance the current
process. While we still believe adding a specific line to the Form 1040 and transcribing
the information from the Form 8885 would improve the administration and enforcement
of the HCTC Program, we accept IRS management’s explanation for not implementing
the recommendation stated above.
                                          3

Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
                                 The Health Coverage Tax Credit Was
                          Accurately Processed During the 2004 Filing Season




                                                  Table of Contents


Background ............................................................................................... Page 1
Returns Claiming the Credit Were Accurately
Processed During the 2004 Filing Season ................................................ Page 2
Automating the Manual Processing of Tax Returns
With the Credit Could Improve Efficiency .................................................. Page 4
         Recommendation 1: .........................................................................Page 4
         Recommendation 2: .........................................................................Page 5

Concerns Were Identified With the Post-processing
Reviews of the Credit ................................................................................ Page 5
         Recommendation 3: .........................................................................Page 7

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 9
Appendix II – Major Contributors to This Report ....................................... Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – Management’s Response to the Draft Report .................... Page 13
                    The Health Coverage Tax Credit Was
             Accurately Processed During the 2004 Filing Season

                            The Health Coverage Tax Credit (HCTC, or credit) was
Background
                            created by the Trade Act of 20021 to help certain displaced
                            workers and certain retirees pay for health insurance.
                            Generally, taxpayers eligible to claim the credit fall into one
                            of two categories:
                                •   Trade-affected workers who have lost their jobs
                                    because of increased imports or a shift in production
                                    to another country. These taxpayers must be
                                    classified as Trade Adjustment Assistance (TAA) or
                                    Alternative Trade Adjustment Assistance eligible.2
                                •   Individuals whose pensions are being paid by the
                                    Pension Benefit Guaranty Corporation (PBGC), are
                                    at least 55 years of age, and are not entitled to
                                    Medicare.
                            The credit covers 65 percent of the cost of qualified health
                            insurance premiums for eligible individuals and qualified
                            family members. To receive the credit, the taxpayer must
                            be enrolled in a qualified health insurance plan.
                            Taxpayers can receive the credit through an advance
                            payment option, where the Federal Government pays
                            65 percent of the health insurance premiums directly to the
                            insurer, or by claiming the credit on their Federal income
                            tax returns. Taxpayers can also receive the credit through a
                            combination of the two.
                            This credit is refundable, meaning taxpayers can claim the
                            credit on their tax returns and receive a refund even if they
                            did not owe any taxes or earn any income. The credit could
                            first be claimed for the month of December 2002, with Tax
                            Year (TY) 2003 being the first full year for the credit. The
                            credit is administered by the Internal Revenue Service (IRS)
                            HCTC Program Office, in conjunction with other Federal
                            Government and state agencies and private industry.
                            Taxpayers claimed and received $30.5 million of the credit
                            on TY 2003 returns3 and received an additional $7 million
                            of advance payments during Calendar Year 2003. The

                            1
                              Pub. L. No. 107-210, 116 Stat 933.
                            2
                              Employees must be certified as TAA eligible by the Department of
                            Labor.
                            3
                              Through May 31, 2004.
                                                                                          Page 1
                          The Health Coverage Tax Credit Was
                   Accurately Processed During the 2004 Filing Season

                                  HCTC Program Office reported the startup administration
                                  costs for the Program as being approximately $69 million
                                  through April 30, 2004, and projected annual operational
                                  costs are $40 million.
                                  The IRS initially expected approximately 250,000 taxpayers
                                  would be eligible for the credit. However, the number of
                                  taxpayers claiming the credit on their TY 2003 returns was
                                  less than 17,000.4 The IRS is conducting research to
                                  determine the reasons for the difference in numbers, but this
                                  research has not been finalized. In addition, an audit was
                                  recently conducted by the Government Accountability
                                  Office that addresses this issue.
                                  This review was performed at the HCTC Program Office in
                                  the IRS National Headquarters in Washington, D.C.; the
                                  Wage and Investment (W&I) Division Compliance Site in
                                  Austin, Texas; and the W&I Division Submission
                                  Processing Sites in Fresno, California, and
                                  Memphis, Tennessee, during the period March through
                                  August 2004. The audit was conducted in accordance with
                                  Government Auditing Standards. Detailed information on
                                  our audit objective, scope, and methodology is presented in
                                  Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  The IRS accurately processed returns claiming the credit
Returns Claiming the Credit
                                  during the 2004 Filing Season.5 We determined that
Were Accurately Processed
                                  eligibility indicators were correctly posted, tax returns
During the 2004 Filing Season
                                  claiming the credit were accurately and efficiently
                                  processed, and post-processing actions were sufficient.
                                  The IRS instituted an eligibility indicator on taxpayer
                                  accounts to prevent erroneous payments
                                  The HCTC Program Office instituted various controls to
                                  ensure only eligible taxpayers would receive the credit and
                                  help minimize erroneous payments. The most important of
                                  these controls was an indicator placed on potentially eligible
                                  taxpayers’ accounts. Taxpayers potentially eligible for the


                                  4
                                    Taxpayers that claimed and received the credit on their TY 2003
                                  returns through May 31, 2004.
                                  5
                                    The period between January and mid-April when most individual
                                  income tax returns are filed.
                                                                                                 Page 2
       The Health Coverage Tax Credit Was
Accurately Processed During the 2004 Filing Season

               credit were reported to the HCTC Program Office by the
               PBGC and the states’ workforce agencies. The credit was
               disallowed during return processing if a taxpayer attempted
               to claim the credit without the indicator being present on his
               or her account.
               We compared the number of potentially eligible taxpayers
               reported to the HCTC Program Office with the number of
               indicators actually placed on taxpayer accounts and
               determined that they matched. Placing this indicator on
               taxpayer accounts helped prevent over 8,000 ineligible
               taxpayers from receiving the credit.
               Controls were in place to accurately process returns
               claiming the credit
               During the 2004 Filing Season, returns claiming the credit
               were computer identified and then manually processed. The
               computer programming logic used to identify these returns
               was accurate, and the procedures used by the processing
               functions to manually process the returns were accurate. In
               addition, we verified that other controls implemented by the
               HCTC Program Office were working. These included a
               control that verified if taxpayers claiming the credit met age
               requirements and controls related to electronic filing.
               Appropriate post-processing actions were taken to
               identify and assess ineligible taxpayers
               In addition to the controls implemented to prevent ineligible
               claims for the credit during return processing, the HCTC
               Program Office also started post-processing reviews of
               returns to verify that taxpayers claiming the credit had a
               qualifying health plan. Even if taxpayers were reported as
               potentially eligible for the credit, they must also have a
               qualifying health plan. We reviewed the methodology used
               to select these returns for review and determined it was
               adequate. We also analyzed the processes and procedures
               used to review these returns and determined that they were
               sufficient to ensure the cases were reviewed effectively.
               Although the IRS accurately processed returns claiming the
               credit and took appropriate post-processing actions,
               improvements could be made to both of these areas.


                                                                      Page 3
                          The Health Coverage Tax Credit Was
                   Accurately Processed During the 2004 Filing Season

                                  Currently, returns claiming the credit are computer
Automating the Manual
                                  identified and then manually processed. The credit is
Processing of Tax Returns
                                  claimed on Line 67 (Other Payments) of the U.S. Individual
With the Credit Could
                                  Income Tax Return (Form 1040). Other credits and
Improve Efficiency
                                  payments can be claimed on this line as well, and the
                                  amounts are combined into a single total. In addition, the
                                  information on the Health Coverage Tax Credit
                                  (Form 8885) attachment to the return is not transcribed into
                                  the IRS return processing system.
                                  Because there is no separate line item or total specifically
                                  for the credit and information from the Form 8885 is not
                                  transcribed, manual processing is required to verify and
                                  input the credit amount into the IRS return processing
                                  system. In accordance with the IRS strategic goal of
                                  improving agency operations by reengineering business
                                  processes, this process should be automated to increase
                                  efficiency and effectiveness.
                                  Since the credit amount is not identified during initial return
                                  processing, systemic computer validity checks cannot be
                                  performed and employees must manually verify the return.
                                  This increases the possibility of manual input errors and
                                  increases resource costs to process these returns.
                                  Furthermore, compliance checks to ensure taxpayers are not
                                  overclaiming the credit cannot be implemented using the
                                  current information input from the return.

                                  Recommendations

                                  To more efficiently process returns claiming the credit, the
                                  Commissioner, W&I Division, should:
                                  1. Insert a specific line on the Form 1040 for the credit and
                                     transcribe the information on Form 8885.
                                  Management’s Response: Although IRS management sees
                                  the benefit of adding the line, there is not space on the
                                  current Form 1040. Further, the relatively small number of
                                  taxpayers who are potentially eligible for the HCTC does
                                  not justify the elimination or consolidation of other lines to
                                  make room for a separate HCTC line at this time. Without a
                                  new line for the HCTC, there would be no need to transcribe
                                  the Form 8885 information because it would not enhance
                                  the current process. IRS management did agree to consider
                                                                                          Page 4
                          The Health Coverage Tax Credit Was
                   Accurately Processed During the 2004 Filing Season

                                  including a line for the credit on future revisions of
                                  Form 1040. The IRS is currently exploring options to
                                  redesign the Form 1040 to give more flexibility in
                                  implementing new statutory reporting requirements and
                                  reduce taxpayer burden.
                                  Office of Audit Comment: We understand and accept the
                                  rationale behind IRS management’s decision to not
                                  implement this recommendation at this time. We still
                                  believe adding a specific line to the Form 1040 and
                                  transcribing the information from the Form 8885 would
                                  improve the administration and enforcement of the HCTC
                                  Program; therefore, we encourage the IRS to pursue adding
                                  a line for the HCTC on future revisions of the Form 1040.
                                  2. If Form 8885 information is transcribed, develop and
                                     implement appropriate systemic validity and compliance
                                     checks using the transcribed information. For example,
                                     a math check could be programmed to verify that the
                                     taxpayer properly computed his or her credit as
                                     65 percent of the total premium amount paid.
                                  Management’s Response: Although IRS management will
                                  not transcribe Form 8885 information, the IRS agreed to
                                  implement systemic validity and compliance checks that do
                                  not require transcription.
                                  Some returns claiming the credit were reviewed after the
Concerns Were Identified
                                  credit had been allowed during return processing. This was
With the Post-processing
                                  done so the IRS could verify that the taxpayer had a
Reviews of the Credit
                                  qualifying health plan. Because of the specific statutory
                                  language that created the credit, the IRS is treating credits
                                  disallowed during these reviews as erroneous refunds. The
                                  IRS should be using special erroneous refund procedures6 to
                                  collect the disallowed credits, and we identified two
                                  concerns related to these special procedures.




                                  6
                                    Erroneous refunds have requirements for collection different from
                                  those for regular tax assessments, and they have a unique statute of
                                  limitations. Accordingly, special procedures are required when
                                  processing these cases.
                                                                                                   Page 5
       The Health Coverage Tax Credit Was
Accurately Processed During the 2004 Filing Season

               The IRS function reviewing returns claiming the credit
               did not have complete procedures
               The function verifying eligibility for the credit had
               procedures sufficient to ensure cases were reviewed
               effectively. However, these procedures did not contain
               instructions to properly process the cases after the credit was
               disallowed and the review closed. This resulted in the
               function not taking additional actions necessary to resolve
               the cases. We reported this issue to the HCTC Program
               Office during March 2004. This omission was caused by an
               oversight during the development of the original
               instructions.
               If cases had been processed without following erroneous
               refund procedures, affected taxpayers could have been
               subject to inappropriate collection actions. Because this
               issue was rapidly identified and corrected, we have no
               indication any taxpayers were affected.
               Management Action: After we reported this issue to the
               HCTC Program Office, it immediately began implementing
               interim procedures for these cases. In addition, permanent
               procedures are now being incorporated into the relevant
               Internal Revenue Manual.7
               The legislation that created the credit needs clarification
               The statute governing the credit does not specify how to
               disallow and recover erroneous credits. All other refundable
               credits are specifically addressed in the Internal Revenue
               Code8 as being subject to deficiency procedures,9 which
               means they can be disallowed by the IRS only through a
               formal examination. However, the HCTC was not expressly
               included with the other credits in the statute. Accordingly,
               the IRS has taken the position that the credit can be
               disallowed without performing an examination and the



               7
                 The official procedures of the IRS.
               8
                 I.R.C. § 6211(b)(4)(A).
               9
                 Deficiency procedures are used by the IRS during a formal
               examination. A deficiency is the difference between the tax amount
               computed by the IRS and the tax amount actually reported by the
               taxpayer on his or her return. Tax assessment amounts proposed under
               deficiency procedures can be appealed to the U.S. Tax Court.
                                                                             Page 6
       The Health Coverage Tax Credit Was
Accurately Processed During the 2004 Filing Season

               amount disallowed should be classified as an erroneous
               refund.
               Erroneous refunds have different, much more restrictive,
               collection requirements than those applied to typical
               examination assessments. We believe classification of
               HCTC disallowances as erroneous refunds could
               compromise the collectibility of the assessments. For
               example, credit amounts that have been determined to be
               erroneous can be collected only through limited actions, and
               the statute of limitations for collection expires sooner than
               for normal examination assessments. Accordingly, it is
               logical to assume that some of the erroneous credit amounts
               issued may never be recovered. However, because the
               Program is so new there are no historical data to determine
               collectibility rates.
               In addition, there is the potential that taxpayer rights may
               not be adequately protected. Taxpayers are given certain
               rights during the normal examination process, including the
               right to file a petition with the Tax Court. However,
               taxpayers that have the HCTC denied do not have this right.
               In fact, according to the IRS these taxpayers have no formal
               right of appeal at any level, although it has indicated it will
               allow courtesy appeals.
               Due to our concerns about collectibility and taxpayer rights,
               we believe it would be appropriate for the IRS to review this
               issue further. We understand that any changes would have
               to be implemented via legislation and that this would have
               an affect on other aspects of the Program, including advance
               payments.

               Recommendation

               To help clarify the legal status of certain post-processing
               actions, the Commissioner, W&I Division, should:
               3. Coordinate with the HCTC Program Office and the
                  Office of Chief Counsel to review the issue of the legal
                  status of HCTC disallowances and to determine if action
                  by the Congress is necessary.
               Management’s Response: IRS management has been
               working with the Office of Chief Counsel to find
                                                                       Page 7
       The Health Coverage Tax Credit Was
Accurately Processed During the 2004 Filing Season

               appropriate methods for collecting erroneous payments
               within the context of the existing law. IRS management has
               addressed many of these issues with the Office of Chief
               Counsel and will maintain that dialogue and further
               determine the need for and/or the possibility of legislative
               clarification in this area.




                                                                    Page 8
                                 The Health Coverage Tax Credit Was
                         Accurately Processed During the 2004 Filing Season

                                                                                                  Appendix I


                            Detailed Objective, Scope, and Methodology

The overall objective of our review was to determine whether tax returns claiming the Health
Coverage Tax Credit (HCTC, or credit) were processed efficiently and accurately during the
2004 Filing Season.1 This included determining the sufficiency of post-processing reviews to
verify eligibility. We did not include the advance payment process in our review because it was
covered in a separate review by the Government Accountability Office.
To accomplish our objective we:
I.         Determined if the HCTC eligibility indicator was properly placed on taxpayer accounts
           by obtaining the number of potentially eligible taxpayers from the HCTC Program Office
           and comparing it with the number of taxpayer accounts with an indicator. These
           accounts were identified by a computer data extract, using the indicator as the criteria.
II.        Determined if the Submission Processing Error Resolution System (ERS) and Unpostable
           functions accurately and efficiently processed returns claiming the credit.
           A. Reviewed and verified whether the computer logic used by the two functions was
              correctly programmed. This was accomplished by analyzing relevant computer
              documentation and reviewing judgmental samples of 63 returns with the credit that
              were computer identified and referred to the ERS and Unpostable functions. The
              samples of 63 returns consisted of 36 returns selected from the ERS functions and
              27 returns selected from the Unpostable functions in the Fresno, California, and
              Memphis, Tennessee, Submission Processing Sites on various days. We were unable
              to accurately determine the population of tax returns processed by these functions on
              those days. Judgmental samples were used because we did not plan to project the
              results.
           B. Reviewed the procedures used by the ERS and Unpostable functions to verify
              whether they adequately enabled employees to accurately and efficiently process
              returns claiming the credit.
           C. Verified the accuracy of the HCTC information posting to taxpayer accounts. This
              was accomplished by obtaining a computer extract of all returns with the credit being
              processed each week from January 1, 2004, through May 31, 2004. This information
              was reviewed for accuracy, including determining if limit checks on the credit were
              working properly and if other controls were in place and working properly.



1
    The period between January and mid-April when most individual income tax returns are filed.


                                                                                                      Page 9
                           The Health Coverage Tax Credit Was
                   Accurately Processed During the 2004 Filing Season

III.   Determined if post-processing reviews of returns for eligibility were sufficient to identify
       and assess returns for taxpayers that were not eligible for the credit.
       A. Interviewed HCTC Program personnel to determine their selection process and
          analyzed their methodology to determine if it was valid.
       B. Reviewed the process and procedures used to review the returns for eligibility.




                                                                                            Page 10
                          The Health Coverage Tax Credit Was
                   Accurately Processed During the 2004 Filing Season

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Richard J. Calderon, Audit Manager
Steven D. Stephens, Lead Auditor
Bonnie G. Shanks, Auditor




                                                                                         Page 11
                         The Health Coverage Tax Credit Was
                  Accurately Processed During the 2004 Filing Season

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:C&L
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Health Coverage Tax Credit Program, Wage and Investment Division SE:W:HCTC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
       Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 12
       The Health Coverage Tax Credit Was
Accurately Processed During the 2004 Filing Season

                                                     Appendix IV


 Management’s Response to the Draft Report




                                                          Page 13
       The Health Coverage Tax Credit Was
Accurately Processed During the 2004 Filing Season




                                                     Page 14
       The Health Coverage Tax Credit Was
Accurately Processed During the 2004 Filing Season




                                                     Page 15
       The Health Coverage Tax Credit Was
Accurately Processed During the 2004 Filing Season




                                                     Page 16
       The Health Coverage Tax Credit Was
Accurately Processed During the 2004 Filing Season




                                                     Page 17
